C@OCKLE

2311 Douglas Street . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tiels contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 19-710

CONNECTICUT FINE WINE AND SPIRITS, LLC,
dba Total Wine & More,
Petitioner,
v.
MICHELLE H. SEAGULL, COMMISSIONER,
CONNECTICUT DEPARTMENT OF
CONSUMER PROTECTION, et al.,
Respondents.

WINE & SPIRITS WHOLESALERS OF CONNECTICUT,
INC., CONNECTICUT BEER WHOLESALERS
ASSOCIATION, INC., CONNECTICUT RESTAURANT
ASSOCIATION, CONNECTICUT PACKAGE STORES
ASSOCIATION, INC., BRESCOME BARTON, INC.,
Intervenors—Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF INTERVENORS-—
RESPONDENTS IN OPPOSITION TO PETITION FOR A WRIT OF CERTIORARI in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 6583 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 3rd day of March, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

ore Kesee 0. Llnow Onda bl. Ohh

My Comm. Exp. September §, 2023
Notary Public Affiant 39260

 
